U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




   International Trade Administration

Pacific Northwest USEAC Network Generally
  Operates Well, but Export Success Reports
            Need More Management Scrutiny

      Final Inspection Report No. IPE-16507/March 2004




               PUBLIC RELEASE




         Office of Inspections and Program Evaluations

                                                   TABLE OF CONTENTS 


EXECUTIVE SUMMARY .......................................................................................................... i


BACKGROUND ..........................................................................................................................1 


OBJECTIVES, SCOPE, AND METHODOLOGY ....................................................................5 


OBSERVATIONS AND CONCLUSIONS ...............................................................................6 


I. Pacific Northwest USEAC Network Operates in a Collaborative Fashion ..........................6 


     A. 	 Network functions in a collaborative, team environment ............................................6 

     B. 	 USEACs collaborate well with most trade partners ....................................................8 


II. Client Satisfaction is High, but Export Success Reporting Needs Closer 

    Management Scrutiny …………………………. ................................................................12 


     A. 	 Clients value the USEACs’ assistance.........................................................................12 

     B. 	 Reported export values are overstated by at least 60 percent .....................................13 

     C. 	 USEACs may not be adequately reaching out to new-to-export companies ...............20 


III. User Fee Collections Warrant Management’s Attention .....................................................24 


     A. 	 Trade specialists sometimes forgo charging clients for international buyer 

          services .......................................................................................................................24 

     B. 	 Many clients consider Commercial Service fees to be low .......................................27 


IV. Financial and Administrative Operations Are Generally Sound, with a Few Exceptions ...29 


     A. 	    Leasing costs have been cut .......................................................................................30 

     B. 	    Purchase cardholders are exceeding spending thresholds ..........................................30 

     C. 	    Advance payments were made for cellular telephone expenses ................................31 

     D.      Time and attendance matters were not handled properly for one employee ..............31 


SUMMARY OF RECOMMENDATIONS ...............................................................................33 


APPENDICES ..........................................................................................................................34 


     A. 	 List of Acronyms .......................................................................................................34

     B. 	 Agency Response to Draft Report .............................................................................35 

     C. 	 Security Issue at One USEAC Needs to Be Addressed (Limited Distribution) .........42 

U.S. Department of Commerce                                                               Final Report IPE-16507

Office of Inspector General                                                                          March 2004


                                        EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major role in
leading the federal government’s efforts to increase U.S. exports. ITA’s U.S. Commercial
Service,1 as one of the most visible export promotion agencies, works closely with the U.S.
business community as well as federal, state, and local trade partners to promote export
awareness and U.S. sales abroad.

Currently, the Commercial Service, through its Office of Domestic Operations, operates 106
U.S. Export Assistance Centers (USEACs), grouped geographically into 12 networks. The key
objective of the USEACs is to enhance and expand federal export promotion and trade finance
services through greater cooperation and coordination between federal and non-federal trade-
related partners.2

The Office of Inspector General conducted the on-site portion of its inspection of the operations
of several offices in the Pacific Northwest USEAC Network from November 10-21, 2003. We
performed additional work at ITA headquarters and via telephone and email following the field
work through January 2004. Our review focused primarily on the management, program
operations, and the financial and administrative practices of the network. During the period of
our inspection, the Pacific Northwest USEAC Network’s service area included Alaska,
California, Hawaii, Idaho, Montana, Oregon, and Washington.

Overall, we found that the export assistance centers within the Pacific Northwest USEAC
Network are generally doing a good job of providing export assistance to U.S. companies,
collaborate well with most trade partners, and have sound financial and administrative
operations. However, we identified a few problems or issues that warrant the Commercial
Service’s attention. Specifically, some export success reports overstate export values or claim
exports that did not occur; outreach to new-to-export companies appears low; and USEACs do
not always comply with Commercial Service requirements for fee collection. Our key
observations are as follows:

Pacific Northwest USEAC Network Operates in a Collaborative Fashion. The 12-office
Pacific Northwest USEAC network—recently created in July 2003 by consolidation of the
Silicon Valley and Seattle USEAC networks—is innovative and works well together. Staff
praised the network director’s leadership and told us that he manages effectively, clearly
communicates expectations, emphasizes CS headquarters initiatives, and has helped develop
strong trade partner relationships. We also found that among their various federal, state, and
local partners in the Pacific Northwest, the USEACS have a strong reputation as valuable trade
partners that are available to help sponsor, promote, and organize trade events and participate in
export counseling. The collocation of representatives of the Export-Import Bank and Small

1
  U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).
2
  The Export Enhancement Act of 1992 directed the Commerce Department to take the lead in setting up “one-stop
shops” to assist U.S. exporters. The one-stop shops, known as USEACs, are intended to integrate the
representatives and assistance of three principal federal agencies providing export promotion services: Commercial
Service, Export-Import Bank, and Small Business Administration. The first four USEACs were established in
January 1994, as pilot offices in Baltimore, Chicago, Long Beach, and Miami.


                                                         i
U.S. Department of Commerce                                                 Final Report IPE-16507
Office of Inspector General                                                            March 2004

Business Administration and a few other trade partners in some USEACs encourages strong ties,
leverages Commercial Service’s resources, and improves client assistance, as evidenced by joint
client outreach and mutual referrals (see page 6).

Clients Value USEACs’ Assistance, but Reported Export Success Values Were Overstated
by At Least 60 Percent, and Assistance to New Exporters Appears Low. Based on
interviews with clients, it appears that the Pacific Northwest USEAC Network is providing
valuable and timely products and services to its clients. However, the network did not always
comply with Commercial Service’s guidelines on the reporting of export successes—the
agency’s key performance measure. We found that the Pacific Northwest USEAC network
overstated its fiscal year 2003 reported export success values by at least $156 million, out of
$263 million (or 60 percent). In addition, we identified $6 million of reported exports that did
not occur. Further, we identified three USEACs in the network that did not report any export
successes for new-to-export companies—another important Commercial Service performance
measure. We are concerned that some trade specialists may not be adequately reaching out to
inexperienced exporters, because they prefer to assist existing clients in order to reach their
export success goals (see page 12).

Commercial Service Should Take Additional Steps To Increase Its User Fee Collections.
Office of Management and Budget (OMB) Circular A-25 establishes federal policy regarding
fees assessed for U.S. government services and for sale or use of federal goods or resources—
including those of the Commercial Service—that convey special benefits to recipients beyond
those accruing to the general public. It requires that fees be set to allow full cost recovery.
However, the Commercial Service’s current policy on fees, as outlined in its Operations Manual,
conflicts with OMB requirements, by requiring only recovery of direct costs associated with fee-
for-service products. Because Commercial Service has not consistently enforced its policy of fee
collection to cover even its direct costs for its products and services—especially for services
executed by USEACs—trade specialists both at the USEACs and overseas posts may sometimes
forgo charging clients for their services. Although ITA has requested a waiver from OMB
Circular A-25 requirements for full cost recovery, OMB has not yet acted upon this request.
Until ITA receives a waiver from OMB, Commercial Service should take additional steps to
increase cost recoveries (see page 24).

Financial and Administrative Operations Are Generally Sound, with a Few Exceptions.
We found the network’s financial and administrative operations, for the most part, to be sound.
Specifically, the network’s assets are accounted for and properly used, collections are recorded
in a timely manner, and time and attendance records are properly managed. We did, however,
discover that (1) some purchase cardholders did not adhere to the $2,500 established annual
spending limit for purchase card payment of cellular telephone airtime charges, and (2) advance
payments were improperly made for cellular telephone expenses. Also, one USEAC director did
not handle time and attendance matters for one employee properly for an extended period of
time. Finally, we learned that Commercial Service is aggressively seeking to reduce its leasing
costs for USEACs nationwide, and for fiscal year 2004, CS expects to achieve lease savings of
$154,000 in the Pacific Northwest region (see page 29).

On page 33, we list a summary of the recommendations we are making to address our concerns.



                                                ii
U.S. Department of Commerce                                                    Final Report IPE-16507

Office of Inspector General                                                               March 2004





The ITA Chief Financial Officer and Director of Administration’s response to our draft report
stated that ITA was pleased with our assessment that the Pacific Northwest network is innovative
and works well together, is providing valuable and timely products and services to its clients, and
that clients remarked about the network’s responsiveness. The CFO did not agree with our
finding that the Pacific Northwest USEAC network had overstated the value of its reported
export successes. As we discuss in detail beginning on page 18 of the report, we thoroughly
evaluated the CFO’s position and provide a discussion of why we continue to conclude that the
reported export successes were overstated.

ITA’s response to our recommendations outlines actions completed and steps to be taken to (1)
strengthen management’s oversight of export successes, (2) increase outreach to new-to-export
firms, (3) comply with OMB Circular A-25 and Commercial Service policies regarding fee
collection, (4) ensure that all appropriate regulations are followed for cell phone services, and (5)
ensure compliance with minimum security standards at one export assistance center. We discuss
those specific actions and ITA’s comments on our recommendations following each appropriate
section in the report. ITA’s entire response to our draft report begins on page 35.




                                                 iii
U.S. Department of Commerce                                                                Final Report IPE-16507

Office of Inspector General                                                                           March 2004


                                               BACKGROUND 


The International Trade Administration (ITA) established the Commercial Service (CS) in 1980
to assist U.S. companies—particularly small and medium-sized businesses—in exporting their
products to international markets, and to protect U.S. business interests abroad. Commercial
Service’s Office of Domestic Operations (ODO) administers 106 U.S. Export Assistance Centers
(USEACs) located across the United States.

The Export Enhancement Act of 1992 called for the creation of export assistance centers that
bring together federal trade-related agencies to form one-stop shops where U.S. firms could
receive information about all federal export promotion and finance activities. In creating
USEACs, Commercial Service designed a “hub-and-spoke” system: a USEAC, with collocated
federal trade partners, serves as the “hub” office supporting the activities of several “spoke” or
satellite offices (also called USEACs), thus creating a network of export service offices within a
designated geographic area.

The Pacific Northwest USEAC Network assists U.S. companies in a wide range of industries, the
most prominent being computers and electronic equipment, environmental and biotechnologies,
information services, software, and telecommunications. Its trade specialists provide one-on-one
counseling and customized business solutions to U.S. firms, particularly small and medium-sized
ones, venturing into markets abroad or seeking to expand their international activities.3 USEACs
often promote tradeshows, meetings, and seminars to identify new clients, including those new-
to-exporting. USEACs also gain clients through referrals from trade partners and trade
associations. Through national programs, such as the Global Diversity and Rural Export
Initiatives, the Commercial Service has increased its outreach to minority and woman-owned
businesses, as well as rural companies, which were traditionally under-served.

To optimize regional and industry similarities of the Pacific Northwest, as well as to maximize
the leadership skills of its managers, CS combined the Silicon Valley and Seattle USEAC
Networks in July 2003, to form the Pacific Northwest Network —the largest of the 12 networks
and the focus of this report. During the period of our review, the newly merged network
consisted of 15 USEACs covering Northern California, Oregon, Washington, Idaho, Montana,
Alaska, and Hawaii (see Figure 1).




3
 Counseling services may include helping clients determine their export readiness; identifying potential export
markets; and developing an overall, long-term international business strategy and marketing plan. Trade specialists
also speak at seminars, participate in export promotion initiatives with their trade partners, promote and sell CS
products and services, and work with CS’ overseas posts, which provide market information and in-country
assistance to U.S. companies.


                                                         1
U.S. Department of Commerce                                                            Final Report IPE-16507
Office of Inspector General                                                                       March 2004

Figure 1: Geographical Territory of the Pacific Northwest USEAC Network As Of
September 30, 2003
                                        Anchorage
                                                                             Spokane
                                                                   Tacoma
                                                 Seattle                       Missoula
                                               Portland

                                             North Bay                             Boise
                                        Sacramento
                                  Oakland
                                         San Francisco                             San Jose
                                             Monterey
                                                     Fresno

                                                     Honolulu

                                    Pacific Northwest          Southern California
                                    USEAC Network              USEAC Network

    Source: Commercial Service.

Prior to July 2003, the Silicon Valley and Seattle networks were two separate networks, each
with its own network director. The Silicon Valley network primarily served the northern
California region, with offices in Fresno, Monterey, North Bay (Novato), Oakland, Sacramento,
San Francisco, San Jose (which served as the hub office), as well as Honolulu, Hawaii. The
Seattle network included USEACs in Anchorage, Alaska; Boise, Idaho; Missoula, Montana;
Portland, Oregon; Seattle (which served as the hub office), Spokane, and Tacoma, Washington.
Beginning October 1, 2003, Missoula and Boise were reassigned to the Denver USEAC, and
Honolulu was reassigned to the Southern California network, leaving the Pacific Northwest
Network with 12 USEACs (see Figure 2)4.




4
 We included the Boise, Missoula, and Honolulu USEACs in our review since they were part of the Pacific
Northwest USEAC network during fiscal year 2003.


                                                       2

U.S. Department of Commerce                                                      Final Report IPE-16507

Office of Inspector General                                                                 March 2004


       Figure 2: Evolution of the Pacific Northwest USEAC Network
                            FY 2003                           FY 2004
             Seattle USEAC Network                                Reassigned at
                                                                  beginning of
              Anchorage, AK                                       FY2004 to the
              Boise, ID                                           Denver USEAC
              Missoula, MT                                        Network
              Portland, OR
              Seattle, WA                                             Missoula
                                            Merger in July 2003
              Spokane, WA                                             Boise
              Tacoma, WA
                                                 Pacific          Reassigned at
                                               Northwest          beginning of
             Silicon Valley USEAC Network       USEAC             FY2004 to the
                                                Network           Southern California
              Fresno                                              USEAC Network
              Honolulu, HI
              Monterey
              North Bay                                                Honolulu
              Oakland
              Sacramento                    Focus of OIG
              San Francisco                  Inspection
              San Jose


          Source: OIG

All USEACs in the consolidated network report to the Pacific Northwest Network director, who
was also the director of the former Silicon Valley network. Typically, network directors are
physically located in the hub office. However, the Pacific Northwest USEAC Network operates
as a decentralized network with the network director residing in Sacramento. The network
director teleworks from his home two days per week, and spends the remainder of his time
visiting each USEAC to review its operations, meet with staff, participate in partner outreach,
and attend trade events. Therefore, this network does not have one central “hub” office.

Since the merger of the Seattle and Silicon Valley networks, the former Seattle network director
serves as both the Seattle USEAC director and the Commercial Service’s liaison to ITA’s Market
Access and Compliance (MAC) unit. MAC has country desk officers and a Trade Compliance
Center whose objectives are to obtain market access for American firms and workers and to
achieve full compliance by foreign nations with trade agreements they have signed with the
United States. The MAC liaison position is part of ITA’s Trade Compliance Initiative and is
intended to increase the level of cooperation, coordination, and interaction between the
Commercial Service and MAC’s desk officers. ITA hopes this collaboration will ultimately
expand the services it delivers to exporters.

In addition to working with other ITA units, the USEACs work with a number of other federal
agencies, to leverage their resources and prevent unnecessary duplication of efforts. The Pacific
Northwest USEACs also work with state trade agencies, local chambers of commerce, and other
trade-related organizations responsible for providing export assistance to U.S. companies.
Together they sponsor, promote, and host trade events and seminars and jointly assist clients.



                                                3

U.S. Department of Commerce                                                             Final Report IPE-16507

Office of Inspector General                                                                        March 2004


At the time of our review, the Pacific Northwest USEAC Network had a staff of 36 employees.
Table 1 below shows the distribution of staff and the collocated partners (highlighted in red).

       Table 1: Pacific Northwest USEAC Network Staff and Collocated Partners
                                As of September 30, 2003

                                    Pacific Northwest USEAC Network Director
                                                 (Sacramento, CA)


                                                   Monterey, CA                San Francisco, CA
                Anchorage, AK
                                                        Vacant                   1 Director, 2 TS
                    1 Director
                                                          E                           Ex-Im,
                        A
                                                                                        F

                   Boise, ID                       North Bay, CA                 San Jose, CA
                    1 Director                      1 Director, 1 TS             1 Director, 4 TS
                        B                                                              BIS


                                                    Oakland, CA
                 Fresno, CA                                                       Seattle, WA
                                                    1 Director, 1 TS
                   1 Director                                                    1 Director, 5 TS
                                                           A
                       E                                                           SBA, Ex-Im


                                                    Portland, OR
                 Honolulu, HI                       1 Director, 4 TS             Spokane, WA
                 1 Director, 1 TS                     SBA, EDA                   1 Director. 1 TS
                                                          B, F                          F

                                                   Sacramento, CA
                 Missoula, MT                                                    Tacoma, WA
                                                   1 Director, 1 PSC
                    1 Director                                                  1 Trade Specialist
                                                           A
                        A                                                            A, C, D


        Source: Commercial Service Organization Chart and OIG.

            Legend for Non-Federal
               Trade Partners:
           A = World Trade Center Ass’n.
           B = State Government
           C = Chamber of Commerce
           D = Local Government
           E = Educational Institution
           F = Trade Association


In FY 2003, the Pacific Northwest USEAC Network operated with a budget of $3.8 million;
collected $181,235 in fees from its clients; and counseled 3,982, including 1,817 new clients that
it added to its portfolio.




                                                         4

U.S. Department of Commerce                                                   Final Report IPE-16507

Office of Inspector General                                                              March 2004


                      OBJECTIVES, SCOPE, AND METHODOLOGY 


The purpose of our inspection was to assess the effectiveness of the management, program, and
financial and administrative operations of the Pacific Northwest USEAC Network. Specifically,
we sought to determine whether the Pacific Northwest USEAC Network

   • 	 plans, organizes, and controls its work and resources effectively and efficiently;
   • 	 operates effectively, in that it meets the needs of U.S. exporters and helps increase U.S.
       exports and market access; and
   • 	 has appropriate internal controls and financial management practices.

To accomplish our objectives, we did the following:

   • 	 Reviewed the individual USEACs’ strategic work plans, which offer quantifiable 

       performance goals and measures for increasing U.S. exports as well as efforts to 

       coordinate and collaborate with trade partners. 

   • 	 Interviewed appropriate Commercial Service officials, as well as 18 trade partners 

       representing various federal, state, and local government agencies, and various 

       geographic, ethnic, and industry-focused constituencies. 

   • 	 Surveyed network staff and a random sample of the network’s clients.
   • 	 Evaluated coordination between the network and other trade-related organizations in
       relation to achieving the overall goals of ITA and the Department of Commerce.
   • 	 Examined pertinent files and records relating to the Pacific Northwest USEAC Network’s
       financial, administrative, and other operations.

We conducted our fieldwork from November 10-21, 2003, by visiting the following Pacific
Northwest USEACs: San Jose, San Francisco, North Bay, and Portland. We also met with the
Oakland USEAC staff, the director of the Seattle USEAC, and other CS officials in ITA
headquarters in Washington, D.C., both before and/or after our fieldwork. During the review
and at its conclusion, we discussed our findings with the Pacific Northwest network director and
ODO’s national director for the Western Region. We also discussed our findings with ITA’s
Chief Financial Officer and Director of Administration, the Acting Assistant Secretary and
Director General of the U.S. and Foreign Commercial Service, and the Acting Deputy Assistant
Secretary for Domestic Operations.




                                                5

U.S. Department of Commerce                                                             Final Report IPE-16507

Office of Inspector General                                                                        March 2004


                              OBSERVATIONS AND CONCLUSIONS

I. Pacific Northwest USEAC Network Operates in a Collaborative Fashion

We conducted a comprehensive review of the Pacific Northwest USEAC Network to determine
how well the USEACs work together, with their overseas counterparts, trade-related partners,
and their business clients. We found the work atmosphere within the various USEACs to be
positive overall. There is a team environment and open lines of communication among the trade
specialists and director within each USEAC we visited and within the network overall.5 The
staff repeatedly noted that the network director provides a clear sense of direction and leadership.
We also found that the USEACs are well respected by their various federal, state, and local
partners in the areas we visited. They consider the USEACs to be reliable trade partners,
available to help sponsor, promote, and organize trade events or participate in export counseling
sessions. Additionally, clients noted the fact that the trade specialists provide them with
information on various markets and keep them apprised of applicable trade events.

A.      Network functions in a collaborative, team environment

The network director resides in Sacramento, but travels regularly to each of the USEACs within
the network. While in Sacramento, he teleworks from his home two days per week and travels to
the individual USEACs regularly, visiting the larger offices on a monthly basis6. Unlike most
other USEAC networks, the network director’s location is not the “hub.” Because of this unique
arrangement, the large number of USEACs in the consolidated network, and the large geographic
territory, we were particularly concerned about the
network’s operations. Based on discussions with the
staff, CS management at headquarters, and trade partners,
the current decentralized model appears to be working            “Collegiality of the staff is fairly
                                                                high…everyone seems to work hard
well, although the network director had only been
                                                                yet be pleasant to their co-workers.”
responsible for the entire network for a few months during
our review.                                                        Trade Specialist’s description
                                                                                   of her colleagues.
At the time of our visit in November, the network director

had already visited 14 of the 15 USEACs in the network,

and met with all staff. The only USEAC he had not yet 

visited was Anchorage, but he planned to be there in February 2004 to attend a trade event. 

During our visit, the network director visited the San Jose, San Francisco, and Portland offices,

and traveled to Seattle to present an export award with the CS’ Acting Director General. 

USEAC directors consistently also told us that the network director is accessible and responsive, 

despite the large geographic territory and number of USEACs in the network. USEAC staff also

told us that the network director manages effectively, clearly communicates expectations, and 

emphasizes CS headquarters initiatives via regular conference calls, email, and on-site visits.

Regarding export successes (CS’ primary performance measure), staff stated that the network 

director emphasizes reaching or exceeding export success goals and collaboration between trade


5
 Use of the term “directors” includes the network director as well as the directors of the individual USEACs.
6
 While in Sacramento, the network director does not usually work at the Sacramento USEAC, since that USEAC
has a director. He does, however, periodically visit that office to oversee its operations.


                                                       6
U.S. Department of Commerce                                                     Final Report IPE-16507

Office of Inspector General                                                                March 2004


specialists. Staff and the network director himself also told us that he occasionally questions
export success write-ups, and frequently requests that trade specialists include additional
information. Further, the network director stated that he verifies reported export success
information with CS’ client management system. However, we found that some export
successes approved by the network director did not comply with CS guidelines, and reported
export success values for the network were overstated by at least 60 percent (discussed on page
13). We also found that interactions among network staff are frequent and collaborative, as
evidenced by the Oakland and San Francisco USEACs’ collaboration on Global Diversity
Initiative events, and the sharing of innovative ideas between the North Bay and Fresno USEACs
(see page 13).

Trade specialists also told us that the network director is concerned about each trade specialist’s
professional development. For example, in addition to the professional development funds
provided by headquarters, the network director allocates additional funds from the network’s
overall budget for each trade specialist to use for job-related training. Some trade specialists
have used these funds for language training relevant to countries where they frequently assist
clients. The trade specialists believe the language training ultimately allows them to provide
better client service. Clients also stated that they find the trade specialists’ language skills
valuable. Other trade specialists have used professional development funds to attend industry
specific seminars, as well as Export-Import Bank training on export financing and various BIS
seminars.

In addition to regular USEAC visits, the network director holds annual “all hands” network
meetings to discuss strategic planning issues and
objectives and share best practices. He also invites senior
level Commercial Service managers to speak about
overall initiatives. Staff told us these network meetings       “Over the years, incoming and
increase collaboration and teamwork, especially after the      outgoing visits [by overseas CS staff]
addition of the Seattle network.                               have strengthened  our relationships
                                                                  with our posts worldwide and as a
                                                                  result have strengthened our client
Because of its strategic location in California’s Silicon         service.”
Valley, the San Jose USEAC often hosts Commercial
Service staff from overseas posts as well as foreign                 San Francisco USEAC Director’s
service nationals on temporary duty assignments and State             description of cooperation with
Department foreign service officers visiting the Northern                   overseas colleagues.
California area. During our visit, the San Jose USEAC
was hosting a foreign service officer on a full two-year
domestic tour. Hosting of overseas officers and staff appears to have helped the Pacific
Northwest network establish good working relationships with many of Commercial Service’s
overseas posts; several trade specialists and directors noted that their relationships with overseas
posts have improved over the past few years, particularly with regard to information sharing. In
addition, a number of trade specialists have completed temporary assignments at overseas posts.
CS management acknowledged that integration initiatives, such as temporary duty assignments
and joint training, have helped improve cooperation and responsiveness between the domestic
offices and overseas posts with staff gaining a better appreciation and understanding of each
other’s roles and functions.



                                                  7

U.S. Department of Commerce                                                              Final Report IPE-16507
Office of Inspector General                                                                         March 2004

The network director also took steps to promote staff continuity and maintain quality client
service. Specifically, he requested and obtained a 10 percent retention allowance for all trade
specialists at grade 12 and lower, in the San Francisco Bay area (includes the Monterey, North
Bay, Oakland, San Francisco, and San Jose USEACs) because the high cost of living in the area
caused frequent turnover in these USEACs. Since the retention allowance was approved in
October 2002, the USEACs have had lower turnover rates, resulting in more reliable client
service. At the time the network director made the request, the USEACs had several trade
specialists who benefited from the retention allowance. Since that time, however, several trade
specialists in San Jose have been promoted, and all of San Jose’s trade specialists are at grade 13
level or higher, and no longer receive the allowance.7

In conclusion, we found that the USEAC network director is cultivating a good working
environment with a focused, results-oriented atmosphere. Furthermore, the directors of the
USEAC offices we visited found the network director to be very accessible and supportive.
They also said the network director had helped improve interaction within and among the
network’s USEACs and brought defined leadership and direction to the offices. However, we
are concerned that a significant percentage of the export successes we reviewed did not comply
with CS guidelines. We are also concerned about the size of the network and the large
geographical area that the network director must cover. Although CS has reassigned three
USEACs from the Pacific Northwest network since it was formed in July 2003, we believe that
ODO should continue to monitor the performance of the Pacific Northwest network to ensure
that such a large network continues to operate effectively and that one network director can
adequately manage and provide necessary leadership and oversight to 12 far-flung USEACs.

B.      USEACs collaborate well with most trade partners

Several USEACs within the Pacific Northwest network are collocated with both federal and non-
federal trade-related agencies. Each collocated federal trade partner works with the staff in the
“home” USEAC, as well as with USEAC staffs throughout the network. The relationships with
collocated and other non-collocated agencies have been very productive, as evidenced by
mutually beneficial referrals and joint counseling for clients. These relationships have helped the
USEACs to leverage their resources. The network USEACs also work closely with a number of
non-federal trade partners, including ethnic chambers of commerce, and local business
development offices, but collaboration with the Northern California District Export Council
(DEC) needs to be improved.

Based on our meetings with 18 trade partners, it appears that the Pacific Northwest USEACs
have also developed close ties with other, non-federal trade partners, facilitating smooth and
enhanced delivery of export assistance to U.S. companies, including greater and more convenient
access to trade finance support as well as joint counseling and mutual client referrals among the
Pacific Northwest USEAC partners. Three non-federal trade partners are also collocated with a
USEAC or located in the same building, which further facilitates cooperation (see Figure 4).



7
 According to Office of Personnel Management regulations, the retention allowance could be as high as 25 percent,
with no limit on grade level.


                                                        8
U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

Federal trade partners. The network staff we spoke with were complimentary with regard to
the support offered by the federal trade partners. Similarly, the trade partners cited the benefits
of their relationship with the USEAC in accomplishing their mission; particularly their ability to
draw on the USEAC staffs’ professionalism, responsiveness, and involvement in the business
and international communities. We learned that the trade specialists and directors within the
Pacific Northwest USEAC Network frequently co-sponsor programs and seminars with their
federal partners and conduct joint client counseling sessions. Both the Small Business
Administration (SBA) and the Export-Import Bank (Ex-Im), through their respective working
capital and export support programs, offer the financial assistance needed by many of the ready-
to-export companies the trade specialists counsel. Ex-Im officials told us they frequently receive
client referrals from their Commercial Service counterparts, and both Ex-Im and SBA stated that
the trade specialists and USEAC directors share quality client leads and know when to bring in
the trade finance experts to provide clients with trade assistance.

The San Francisco USEAC is collocated with an Ex-Im Bank regional representative who not
only answers trade finance-related questions but also participates in outreach and joint
counseling of USEAC clients. The Ex-Im representative works with all the Pacific Northwest
USEACs and praised the trade specialists’ dedication and knowledge, and clients cited the
benefits of the joint counseling sessions of USEAC and Ex-Im staff, particularly in the area of
credit insurance.

The Portland USEAC is collocated with two trade partners, the Small Business Administration
(SBA) and Commerce’s Economic Development Administration (EDA). The SBA
representative frequently conducts joint client counseling with USEAC staff. SBA and the
USEAC also mutually refer clients. The SBA representative stated that her work is completely
integrated with that of the USEAC and cited increased collaboration as a benefit to collocation.

Department of Commerce trade partners generally work well with Network USEACs

The presence of an EDA representative in the Portland USEAC, though unusual, is beneficial to
several of the network USEACs. EDA’s involvement with local development projects in the
Pacific Northwest enables the representative to refer companies to the Portland and Northern
California USEACs for export assistance. The EDA representative also supports CS’ Rural
Export Initiative, which enhances the USEAC’s outreach to rural and Native American
communities through seminars and on-site visits.

In the San Jose USEAC, the Bureau of Industry and Security’s (BIS) Office of Export
Administration has two representatives available to assist USEAC trade specialists in answering
clients’ questions about export licenses and controls. Because of BIS’ Export Administration
Regulations, this particular collocation is especially valuable in the Silicon Valley’s high-
technology business corridor. BIS staff, in turn, refer their clients who are also seeking export
promotion services to the USEACs. We might add that the BIS staff in San Jose do not limit
their assistance to exporters and USEACs in the Pacific Northwest. During a recent visit to the
Boston USEAC, the Inspector General was told that the USEAC staff there received help and
information from the San Jose staff, which provided invaluable answers to questions about
export licensing from New England businesses seeking to export their products.



                                                9
U.S. Department of Commerce                                                       Final Report IPE-16507
Office of Inspector General                                                                  March 2004

Non-federal trade partners. The state of California, facing a budget crisis and investigations of
inflated or erroneous claims of export successes by its overseas trade offices, dismantled its
entire international trade and commerce bureau in August 2003. In addition to the state
government’s decision to close its export offices, some local trade partners have also cut back
their services due to budget constraints. Nevertheless, several non-federal trade partners we
interviewed—in the Northern California or Portland areas—continue to provide valuable
referrals of potential exporters and opportunities for USEAC outreach to the local business
communities (see Figure 4 for some examples of collaboration).

District Export Councils (DECs). Most of the USEACs report that they have very active
DECs, especially those in Alaska, Idaho, Oregon, and Washington. The DECs in those states
work closely with the USEACs to increase outreach to exporters. For example, the Boise
USEAC is the site of the Idaho DEC (which meets
                                                                District Export Councils (DECs) consist of
monthly), and has initiated inter-DEC cooperative efforts       local leaders who have international business
with the Washington and Montana DECs to maximize                expertise, which they share with USEAC
export counseling available to clients. The Alaska USEAC        clients, and thus complement the assistance
also reported having excellent working relationships with       provided by CS trade specialists. There are 56
DEC members, with mutual support of operations.                 DECs throughout the country. Council
                                                                members are appointed by the Secretary of
According to the Portland USEAC director, the DEC in its        Commerce.
area holds semiannual meetings and co-sponsors about
three events a year. Despite the few meetings, many of the Portland DEC members are trade
partners with whom the USEAC collaborates on a regular basis. Furthermore, the USEAC
maintains a referral network of DEC members who are available to assist local companies with
their export questions. Conversely, network staff reported that the Northern California DEC
focuses more on trade policy than trade promotion activities, and does not meet on a regular
basis. One of the Northern California USEAC directors stated that she does not understand the
purpose of the DECs, and has no contact with them. We were somewhat surprised that the
USEACs in Northern California have not tried to develop more support from and cooperation
with the DEC, since they have been invaluable resources to USEACs elsewhere in the nation.




                                                   10 

U.S. Department of Commerce                                                   Final Report IPE-16507
Office of Inspector General                                                              March 2004

Figure 4: Examples of collaboration between Pacific Northwest USEACs and non-federal
trade partners

    San Jose
      • 	 The City of San Jose’s Office of Economic Development is a significant force in the
          exporter community, hosting foreign government and business delegations; its
          international program director works with the San Jose USEAC staff and BIS
          representatives by making client referrals.
      • 	 The Silicon Valley Center for International Trade and Development (CITD), with its
          training program for companies new-to-exporting, is another source of clients for the
          USEAC.
      • 	 The Japanese American Chamber of Commerce holds three to four joint trade events
          with the San Jose USEAC annually and continues to partner with the USEAC as a
          valuable source of companies interested in exporting.
   San Francisco
      • 	 The San Francisco USEAC has a strong relationship with the local chapter of the
          American Institute of Architects, jointly sponsoring events, such as video conferences
          for architecture and engineering firms seeking to do business in Asia and the Pacific
          Rim.
      • 	 The Bay Area CITD serves both the San Francisco and Oakland USEAC areas and
          collaborates closely in Global Diversity Initiative outreach and trade development
          support. The director of the CITD praised the USEAC staff and stated that they are a
          valuable resource for hosting joint events and trade missions.
      • 	 The San Francisco Global Trade Council is collocated with the San Francisco
          USEAC, which allows many opportunities for hosting local trade events and
          interacting with inbound and outbound trade delegations and VIPs.
   Portland
      • 	 The Pacific Northwest International Trade Association promotes international trade
          throughout the region through joint conferences conducted with the Portland USEAC,
          showcases the USEAC’s services to its members, and invites senior commercial
          officers to speak at its functions in order to increase interest in exporting and identify
          market opportunities.
      • 	 The International Division of the Oregon Economic and Community Development
          Department is located in the same building as the Portland USEAC. The head of the
          USEAC and the Oregon International Division meet monthly to identify opportunities
          for further collaboration as well as conduct joint client visits and coordinate trade
          events.


 Source: OIG




                                                11 

U.S. Department of Commerce                                                   Final Report IPE-16507
Office of Inspector General                                                              March 2004

II. Client Satisfaction is High, but Export Success Reporting Needs Closer Management
Scrutiny

The Pacific Northwest USEAC Network received high marks from its clients for the services it
provided. The clients we contacted were generally impressed with the availability and
responsiveness of the trade specialists and pleased with their knowledge of overseas markets,
access to contacts, and understanding of how to conduct international sales. However, we found
that the Pacific Northwest USEAC Network and ODO headquarters staff, who have
responsibility to review performance reports, did not always comply with Commercial Service’s
guidelines for reporting and reviewing export successes—Commercial Service’s key
performance measure. Specifically, we found that the network overstated its export values by
nearly 60 percent for fiscal year 2003, and reported export sales that did not occur. We also
found that several USEACs claimed few new-to-export successes. In fact, three USEACs did
not report any successes for new-to-export companies. Further, of the new-to-export successes
reported, 9 percent were either duplicates or misclassified.

A.     Clients value the USEACs’ assistance

Of a sample universe of 152 clients, we obtained feedback from 85 via either telephone or e-
mail. We visited an additional 13 clients during our on-site visit. Repeatedly, clients remarked
that they had not expected such responsive customer service from a government agency. One
client was particularly pleased by the assistance he received from a San Jose trade specialist who,
during her temporary assignment in Asia, made several calls on his company’s behalf and
contacted him from Japan to address his concerns. This client considers the trade specialist an
extension of his staff and frequently invites her to make presentations at his company regarding
new markets.

Another minority client was impressed by a trade specialist’s patience and dedication, evidenced
by the fact that the specialist took the time to explain things numerous times to her to overcome
language barriers. Several other clients added that the trade specialists’ knowledge of and
subsequent referrals to SBA and Ex-Im helped make their export transactions a success. Other
businesses that we spoke with stated that the trade specialists keep them informed of market
conditions and issues affecting exports and upcoming events.

Clients also were pleased with the USEACs’ innovative use of technology to assist exporters.
For example, the San Francisco USEAC conducts regular video market briefings to assist
companies in service sectors (e.g., architectural design firms) meet with potential buyers at a
very low cost. One client valued the trade specialist’s input so highly that she asked him to be a
board member of the nonprofit organization she represents.

Also, the North Bay USEAC uses video-conferencing equipment to conduct “virtual wine
tastings” to promote wine exports. In coordination with the CS post in the target country, as well
as the Foreign Agricultural Service, the North Bay USEAC has the U.S. wineries ship a case of
their wines to the target country embassy. The trade specialists at the overseas posts bring
representatives of interested foreign companies to the embassy for the tastings. As the U.S.
exporters describe their wines via video conferencing, the wines are simultaneously poured and



                                                12 

U.S. Department of Commerce                                                      Final Report IPE-16507
Office of Inspector General                                                                 March 2004

tasted. The USEAC hosts approximately three wine tastings per year and has already held
tastings with companies in Italy, Mexico, Colombia, Philippines, Japan, Switzerland, and
Vietnam.

We met with the owner of a small U.S. winery who participated in the virtual wine tastings
hosted in several countries. This client was very satisfied with the trade specialist’s assistance
and praised the USEAC’s innovative approach. Although this client had not achieved exports
yet, he stated that without this service the cost of traveling to a country to directly interface with
the buyers would be prohibitive for a small winery such as his.

Through collaboration with the North Bay USEAC, trade specialists at the Fresno USEAC
realized that exporters in that area could also benefit from virtual tastings. In February 2002 the
North Bay USEAC assisted the Fresno office in launching Fresno’s first virtual wine and food
tasting. Subsequent to this, the Fresno USEAC has hosted tastings for other products. Trade
specialists at the North Bay USEAC explained to us that virtual tasting events could be launched
by any USEAC who has clients in the wine or food industries, as long as the overseas posts are
willing to participate.

B.     Reported export values are overstated by at least 60 percent

Export successes are Commercial Service’s key performance measure. The Office of Domestic
Operations (ODO) uses reported export success data to assess the performance of USEACs and
trade specialists to determine whether they are meeting organizational goals and objectives.
OMB and Congress use the data when reviewing Commercial Service performance and funding
levels. Reporting inaccurate export successes that do not conform to CS’ Operations Manual
guidelines is a serious concern.

Both trade specialists and USEAC directors have a yearly export success performance goal,
outlined in their annual individual work plans. For example, for fiscal year 2003, a trade
specialist at grade level 13 was expected to realize 35 export successes. Information about each
export success is recorded in CS’ client management system by a trade specialist, but must be
reviewed and approved by the USEAC director, who then forwards the success record to the
network director for final review and approval. A USEAC director forwards his/her export
success records directly to the network director. According to CS management, headquarters
staff then randomly spot-check the approved export successes, as called for in ODO’s guidelines.
If problems are identified, staff are supposed to bring the export success to the attention of the
regional directors.

In reporting their export successes in narrative form, trade specialists and USEAC directors are
expected to briefly describe the client company, what it does, and where it does business; then
explain the chain of events leading to the success—that is, what was done to make the success
happen including any actions by other CS or ITA staff as well as federal, state, or local trade
partners who assisted with the success. Per the guidelines, there must be a direct link between
the USEAC assistance provided and the reported outcome.




                                                  13
U.S. Department of Commerce                                                          Final Report IPE-16507

Office of Inspector General                                                                     March 2004


Commercial Service reports to Congress both the           Commercial Service uses export success data
number of export successes generated per fiscal           to assess the performance of USEACs and
year and the total dollar value of those exports.         trade specialists and determine whether
Commercial Service reported that during fiscal            organizational goals and objectives are being
year 2003, it facilitated 14,090 exports, which 	         met. OMB and Congress use this data when
                                                          reviewing Commercial Service’s
totaled over $35 billion. 	                               performance and funding levels. The
                                                          Commercial Service Operations Manual
The Pacific Northwest USEAC Network reported              describes export successes as follows: 

761 export successes for fiscal year 2003. Of that 

total, we reviewed a random sample of 152, or 20              An actual verifiable export sale—

                                                              shipment of goods or delivery of

percent. To determine the accuracy of the                     services.
reported information, we contacted 85 clients, or             The legally binding signing of an
approximately 56 percent, of the sample and 	                 agreement, including agent/distributor,
learned that several approved successes did not 	             representation, joint venture, strategic
occur or did not comply with the CS guidelines. 	             alliance, licensing, and franchising or the
                                                              signing of a contract by the client, with
                                                              sales expected in the future.*
Based on the 20 percent sample we reviewed, we                Resolution of a trade complaint or
found that the value of export successes reported             dispute on behalf of the client—avoiding
by the Pacific Northwest USEAC Network for                    harm or loss.
fiscal year 2003 was overstated by at least $156              Removal of a market access barrier,
                                                              including standards, regulations, testing
million, out of $263 million in reported export               and certification—opening a market for
value (about 60 percent). Of the $156 million,                U.S. firms.
$150 million is attributable to two export
successes where the trade specialist reported               * The signing of a contract and an export sale
                                                            immediately thereafter (within 3 months),
anticipated export values for an electrical power           related to the same contract, must be reported
plant and a waste water treatment plant. In both            as a single export success.
of these cases, the U.S. companies signed
contracts to build the plants overseas. We do not question the legitimacy of the contracts to build
the plants, nor the trade specialist’s assistance in these cases. In fact, both clients were
complimentary of the trade specialist. However, both clients stated that although they expect
some exports to occur, the contracts were for the overall construction of the plants and did not
specify or guarantee any amounts for exports, nor had any exports occurred yet. Both clients
told us that the $100 million and $50 million amounts were merely “ballpark figures” and
although exports were likely to occur at some point, the companies could not be certain of an
export value.

We agree that based on client feedback, it appears that some exports related to these contracts are
probable. CS’ Operations Manual specifically states that the legally binding signing of an
agreement, as in the two instances described above, can be claimed as an export success.
However, the manual states that trade specialists should “only claim the dollar value of the actual
amount of product/service that has already been sold. Projected or anticipated sales, etc. are not
allowed as the sales have not yet been consummated.” Therefore, the trade specialist should not
have included—and the network director should not have approved—these amounts as export
sales.




                                                   14
U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

The two export successes we cited above comprised over half of the network’s reported export
success value. Although the network director sought advice from CS headquarters officials
before approving these two export successes, we believe that given such high export values, the
network director should have taken additional steps (e.g., contacting the clients) to confirm the
reported information. Such simple steps as these could prevent the reporting of overstated
performance claims like the ones we identified.

We also identified 11 cases, totaling nearly $6 million, for which the clients told us the exports
simply did not occur, in direct conflict with the reported export success story. Again, we do not
question that the trade specialists involved provided assistance to the U.S. companies. We are,
however, concerned that the reporting write-ups were approved as successes with “success
amounts” ranging from $3,000 to $5,000,000, even though no export sales had taken place. In
one case where the success story claimed a $500,000 export to Mexico, the client stated that his
company had purchased a Gold Key in Mexico, but no sales ever resulted. In response to our
review, the trade specialist stated that he obtained the export figures from the trade specialist a
CS Mexico, rather than from the U.S. company. In previous OIG reports, we noted the
importance of trade specialists confirming export information directly from the U.S. client to
ensure more reliable reporting, and we reiterate the importance again here. We brought these
export successes to the attention of the Pacific Northwest network director, who stated that in
these instances, since there were no actual export sales, no monetary success amount should have
been reported (see figure 5 below).




                                                15 

U.S. Department of Commerce                                               Final Report IPE-16507

Office of Inspector General                                                          March 2004




Figure 5: Comparison of FY 2003 reported vs. actual export values
          (*Based on 20 Percent Sample Reviewed by OIG)




        $263                                            $156                                   $107
                                                                                              Million
       Million                                         Million




                                               Reported export 

                                          values that did not comply

      Export Values 

                                            with CS guidelines or 

       Reported By
                                                                   Maximum Export
                                          exports that did not occur

     Pacific Northwest 
                                                                   Value
     USEAC Network 
                                                                   40 Percent of
        For FY2003
                             60 Percent of
                                                                                      Reported Value*
                                               Reported Value*




Source: OIG


We also questioned four other reported successes where the trade specialists claimed credit for
helping companies avoid export sales that may have exposed them to losses due to fraudulent
schemes by importers. According to section 4.2.1 of CS’ Operations Manual effective during
our review period, “offices cannot claim a success for preventing a U.S. company from making a
bad sale, such as with the ever-present West African fraud letters—this would open up a
Pandora’s box of tenuous reports and figures.” Since the Operations Manual did not allow credit
to be claimed for this assistance in fiscal year 2003, we do not believe these export successes
should have been approved.

Again, we do not question that the trade specialists provided valuable assistance to these
companies. In fact, one businessperson who avoided $1.4 million in sales to a fraudulent
Ghanaian company, informed us that proceeding with the sale, “could have been costly to my
company had I not had the help of the export services.” Other companies similarly expressed
satisfaction with CS’ due diligence in helping to prevent financial harm.




                                                  16
U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

We are pleased that under CS’ new export success guidelines, effective October 1, 2003, this
type of assistance can now be claimed as a success. When we brought these export successes to
the attention of the network director, he explained that at the time he approved these successes,
he believed that CS allowed these export successes to be claimed. However, during our
discussions with the Western Region national director, he agreed with us that no export success
credit was allowed for this type of assistance during our review period. Despite this change in
the guidelines, the CS Operations Manual has not been updated and still reflects that this
assistance does not qualify as a legitimate success. We recommend that CS update its
Operations Manual to reflect its new guidelines and ensure that network directors are aware of
this and other changes.

A final note in relation to preventing a potential fraud: we do not believe that this assistance
should be classified as an “export success.” CS management agreed with us that prevention of
an export loss is not an export. Therefore, to accurately reflect this category of assistance and
avoid misstating information to Congress, we believe CS should develop a new category for this
success type.

The errors, discrepancies, and quality control problems we identified appear to be the results of
(1) network staff’s failure to consistently follow Operations Manual guidelines for performance
reporting, and (2) management’s inadequate oversight of this data. According to the Operations
Manual, “Managers and staff are accountable for reporting performance statistics consistent with
this guidance. Office Directors provide quality control certifications by completing approval
fields in the CMS database. Regional Directors spot-check Export Success reports.” We are
concerned that neither the Pacific Northwest network director nor the national director for the
Western Region identified the reporting errors contained within the export successes we
reviewed.

In response to our report on the Chicago USEAC Network, which identified similar problems,
the Commercial Service informed us that it has taken actions to improve the quality of export
success reporting. This includes revising its export success guidelines and working directly with
the USEACs to facilitate the implementation of the guidelines and ensure greater accuracy and
consistency, and compliance with CS policy. It is also developing a training class to help
employees (1) understand the new guidance, (2) improve the quality of export successes, and (3)
ensure that trade specialists are recording client interaction consistently. Under a proposed
reorganization, the agency also plans to designate a senior-level employee in ODO to review
export success reporting nationwide. We support all of these actions, but CS should ensure that
all appropriate staff, including the senior ODO official, are held accountable for carrying out
their responsibilities with regard to export success reporting.

Recommendations. Commercial Service should

   • 	 monitor the implementation and adequacy of its initiatives for improving export success
       reporting and review, and ensure that they have the desired impact of enhancing both the
       reporting process and management oversight;
   • 	 ensure that reported successes that did not occur are deleted from the database; and




                                               17
U.S. Department of Commerce                                                   Final Report IPE-16507
Office of Inspector General                                                              March 2004

   • 	 ensure that the Commercial Service Operations Manual is updated to reflect its new
       export success guidelines, including development of a new category for prevention of
       export loss.



In responding to our draft report, ITA disagreed with our finding that the Pacific Northwest
USEAC network had overstated the value of its reported export successes by about 60 percent.
It requested that we recognize the validity of the export values for the two export successes
totaling $150 million. The Commercial Service cited the following section in CS’ Operations
Manual, related to major advocacy projects, as justification for reporting the export values of
these two contracts: “Offices can claim the total value of the U.S. content of the contract even if
sales/service are spread out over several years.” The Commercial Service added that it believes
this guideline applied to these two successes because they were attributable to the combined
work of both ODO and overseas (Commercial Service’s Office of International Operations)
trade specialists. Also, ITA said that the Commercial Service asked the clients to provide only
the U.S. content value of exportable goods and services within the much larger contract values,
and the figures reported represented the clients’ assessment.

We continue to disagree with the Commercial Service’s reporting of these export dollar values
for the following reasons. First, the complete citation regarding major advocacy projects from
CS’ Operations Manual states that: “Offices can claim the total value of the U.S. content of the
contract even if sales/service are spread out over several years. The difference here is that the
contract is a legally binding document. Sales are thereby ensured and are not just anticipated or
projected.” According to this criteria, the key factor in determining whether to report the full
export value for major advocacy projects is whether the contract ensures or guarantees exports.
This was clearly not the case for either export success that we cited. In fact, both clients
specifically told us that these contracts did not require any amounts for exports and the amounts
provided were merely estimated export values—the value of actual exports could be much higher
or much lower. In subsequent discussions with Commercial Service headquarters officials, they
told us that contracts for long-term major advocacy projects, such as the two we cited, typically
specify the amount of U.S. content. Again, that was not the case with these two contracts. We
note that regardless of which section of the CS Operations Manual is used (major advocacy or
the export success reporting criteria we noted in our report), since the contract did not require a
specific amount of exports, the reported dollar value for both of these successes should have
been zero.

Further, during our review, we obtained documentation that the clients provided to the trade
specialist that assisted both of these clients. In this documentation, one client stated that the
contract “will result in the export of approximately $100 million dollars in equipment and
materials.” Earlier documentation from the same client to the trade specialist indicates that the
same contract “will result in the export of approximately $50 million dollars in equipment and
materials.” We believe that this $50 million dollar difference reported by the company should
have alerted the trade specialist and network director to the fact that these figures were merely
projections and the company was unsure—and that the contract did not require—any amounts
for exports. We note that when we contacted these clients, they were both very forthcoming


                                                18 

U.S. Department of Commerce                                                     Final Report IPE-16507
Office of Inspector General                                                                March 2004

about the details of the contracts and readily told us that these amounts were merely “ballpark
figures.” Thus, while we agree that the trade specialist should be credited with diligently
assisting both of these clients, according to Commercial Service’s reporting guidelines, these
export successes should not have included any dollar amounts for projected exports. Although
based on the client feedback, we believe that some exports will most likely occur eventually as a
result of these two contracts, according to Commercial Service’s performance measure
guidelines, it is misleading to claim these projected export values prematurely.

ITA’s response also noted that Commercial Service export success dollar values are not reported
as an official measure in the Department’s annual performance plan. We appreciate the CFO
pointing this out and we have removed reference to the Plan in our report, although we note that
the Plan does include the number of export successes. The Department’s Fiscal Year 2003
Performance and Accountability Report also includes the “dollar value of completed
advocacies,” which measures the estimated dollar value of U.S. export content of foreign
contracts signed or awarded to U.S. companies during a fiscal year. Since the two export
successes we questioned listed advocacy as a secondary product, we ask that ITA and
Commercial Service officials determine whether these reported amounts were included in ITA’s
advocacy figures for fiscal year 2003 and whether the amounts should now be deleted from the
advocacy performance data.

ITA agreed that management oversight of export success reporting can be strengthened across
the field as well as in headquarters. In its response to our draft report, ITA outlined the actions it
had completed or intends to take to improve the quality of export success reporting. This
includes development of harmonized performance standards; creation of a training class to help
personnel understand the new reporting guidance, improve the quality of export success
narratives, and ensure that trade specialists are using CMS to record client interaction
consistently; and the designation of a senior-level official in headquarters to be responsible for
ensuring that export successes are of high quality and that there is consistency in reporting
nationwide. We support the planned corrective actions, including the designation of this senior
level official to ensure that export successes are thoroughly reviewed by headquarters
Commercial Service personnel. ITA also stated that it is reviewing fiscal year 2004 export
successes to ensure that any problems resulting in the reporting of export successes that did not
occur or are overstated are resolved.

In addition to those efforts, ITA stated that its Office of the Chief Financial Officer (CFO) will
conduct several on-site verification and validation reviews of export success data as well as other
performance results data, during the second half of this year. The purpose of these reviews will
be to ensure that data sources used in Department documents (e.g., ITA Performance and
Accountability Report) are accurate and properly prepared and that any duplicate or overstated
export successes are deleted from the database. ITA also stated that Commercial Service’s
Office of Planning has implemented an oversight function to work in tandem with ODO to
ensure that there are no duplications within FY 2003 and FY 2004 export success data.

We support ITA’s effort to improve the quality of export success reporting and the reporting of
other performance data, however, we note that it may not be necessary to conduct on-site
verifications since ITA’s CFO staff has access to export success reports via eMenu and client



                                                 19 

U.S. Department of Commerce                                                       Final Report IPE-16507

Office of Inspector General                                                                  March 2004


counseling reports via CMS at headquarters. As part of its action plan, we ask that ITA discuss
the methodology it will employ to conduct verifications and validation reviews of export success
and other performance data.

Lastly, ITA stated that it has implemented our recommendation that Commercial Service’s
Operations Manual be updated to reflect its new export success guidelines, including
development of a new category for prevention of export loss. We are pleased that Commercial
Service has updated its export success guidelines to account for prevention of export losses.
However, as recommended in our draft report, we believe that the Commercial Service should
develop a new category for these types of “successes,” since reporting these as exports could be
misleading to OMB and Congress. We reiterate that this type of assistance is valuable to clients.
We request that you address the details of this new category in your action plan.

C.     USEACs may not be adequately reaching out to new-to-export companies

CS’ Operations Manual (and, similarly, the Program Assessment           An NTE success occurs when a
Rating Tool that CS submits to OMB) defines the three                   U.S. firm makes its first sale into
classifications of transactions, in relation to export successes, as:   any foreign market. An NTM
                                                                        success occurs when a U.S. firm
new-to-export (NTE); new-to-market (NTM); and increase-to-              with some existing level of export
market (ITM). In its annual reporting to Congress and OMB,              activity makes a sale in a new
along with the number and dollar value of export transactions,          market, enters into a legally
                                                                        binding agreement, or introduces
CS also reports the transaction classification.                         new products or services that
                                                                        require a different channel of
For fiscal year 2002, CS fell short of its NTE goal, which was to       distribution in a market to which it
                                                                        already exports. An ITM occurs
achieve 800 exports for NTE firms. It reported 699 NTE, or 87           when sales are made by a U.S. firm
percent of its goal. For fiscal year 2003, out of a total 14,090        in its existing foreign markets,
export successes, CS overall reported 897 as new-to-export, or          using the criteria of an export
                                                                        success.
about 6 percent of its reported export successes (see Figure 6).
CS’ 2003 goal for NTE successes was 800—no increase from its
fiscal year 2002 NTE goal—despite the fact that CS’ total export success goal increased by 10
percent.




                                                  20 

U.S. Department of Commerce                                                                   Final Report IPE-16507

Office of Inspector General                                                                              March 2004


     Figure 6: Commercial Service FY 2003 Reported New-to-Export (NTE) Successes


                                             FY 2003
                                           NTE Reported
                                            Successes
                                                               6.3%       897
                                                                          successes
                                                               6.3%
                                                                                  13,193
                                                                                  successes


                                                    Other 93.7%




                             Successes Reported By Commercial Service for FY 2003 By Type

                             Source: OIG



We calculated the number of NTE export successes reported by each USEAC in the Pacific
Northwest network in FY2003 (see Table 2 below). Three USEACs (North Bay, Spokane, and
Tacoma) did not report any successes for NTE companies. An additional four USEACs
(Honolulu, Oakland, San Jose, and Seattle) reported less than 5 percent of their export successes
for NTEs.

  Table 2: NTE Transactions Reported by the Pacific Northwest USEAC Network*
                               Reported     Reported       Percent of
                                Export        NTE             NTE
                 USEAC         Successes    Successes    Successes (%)
                    Anchorage                  15                  6                  40.0
                       Boise                   24                  3                  12.5
                      Fresno                   31                 10                  32.2
                     Honolulu                  23                  1                   4.3
                     Missoula                  27                  8                  29.6
                     Monterey                  28                  6                  21.4
                    North Bay                  55                  0                    0
                     Oakland                   32                  1                   3.1
                     Portland                 142                 11                   7.7
                    Sacramento                 30                  2                   6.6
                   San Francisco               68                  7                  10.2
                   San Jose                   164                  7                   4.2
                      Seattle                  82                  4                   4.8
                     Spokane                   28                  0                    0
                     Tacoma                    12                  0                    0
                       Total                  761                 66                   8.6
               Source: Commercial Service Reported Successes and OIG Analysis.

       * These figures are based on export successes classified as NTE by the network prior to adjustments based
         on OIG findings of inaccurate reporting.


                                                          21
U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

Further, of the 66 reported NTE successes reported by the Pacific Northwest USEAC network,
we identified 6 that were either misclassified or did not meet CS’ definition of an NTE.
Specifically, we identified three export successes reported by the Monterey USEAC for the same
company, with sales in three different countries. Each export success classified the company as
an NTE. Clearly, only the first export success met CS’ definition of an NTE. For another
company with two exports to two different markets, the trade specialist classified each export
success as NTE. In another case, although the narrative clearly stated that the company had been
exporting for some time, the success type was classified as “new-to-export.” Another client
whose company generates all of its revenue from exports told us that he had been exporting to 25
countries for the past 20 years. Despite this, the company was classified as NTE by the trade
specialist. Thus, the Pacific Northwest USEAC network overstated its NTE successes by 9
percent. When we discussed this with the Western region national director, he stated that CS
believes that its reported NTEs are overstated by only 1 percent. However, based on our findings
here, we are concerned that CS’ overall reported NTEs may be overstated by more than 1
percent.

Again, because this data is used by the Department of Commerce, OMB and the Congress in
reviewing CS’s overall performance and funding requests, the accuracy of these figures is
critical. The number of NTEs is a crucial CS performance measure, and is designed to ensure
that trade specialists reach out to as many companies as possible to help expand U.S. exports.
Trade specialists reported that because of intense pressure to reach short-term export success
goals, they often cannot spend adequate time with inexperienced exporters. Instead, to reach
their goals, trade specialists may spend time assisting ITM or NTM exporters that are more likely
to achieve exports in the short-term, and thus help the trade specialists reach their goals. We are
concerned that this may be at the expense of NTE companies who need additional assistance.
Based on the comments from trade specialists and the low percentage of NTEs in the network
and CS overall, we are concerned that potential exporters are not receiving the assistance needed.

Recommendation. Commercial Service needs to ensure that trade specialists are adequately
reaching out to and counseling U.S. firms interested in developing export business, including
new-to-export firms. In addition, we recommend that network directors and headquarters
management ensure that export success data correctly reflects the export transaction type.



In responding to our draft report, ITA’s Chief Financial Officer and Director of Administration
agreed that it is incumbent upon trade specialists should reach out to and counsel U.S. firms
interested in developing export business, including new-to-export firms. However, she noted
that trade specialists are also responsible for nurturing relationships with clients over the long
term. We understand that Commercial Service has limited resources, and must ensure that long-
term, more established exporters are not neglected, while concurrently uncovering and assisting
new firms that may be interested in exporting. We also recognize that some firms identified
through extensive outreach may be new to Commercial Service products and services, but may
not be new-to-exporting, and therefore would not meet ITA’s definition of a new-to-export firm.




                                                22 

U.S. Department of Commerce                                                 Final Report IPE-16507
Office of Inspector General                                                            March 2004



ITA’s Chief Financial Officer also stated that ITA is “looking at a number of options to motivate
trade specialists to devote more time to new client development.” Because this is one of ITA’s
primary performance measures, we request that ITA, in its action plan, provide additional details
of the steps it has taken or is planning to take to help increase exporting activity by new-to
export firms.

ITA also stated that it is taking steps to ensure that export success data correctly reflects the
export transaction type, through site visits, sampling and data certification requirements. We
support ITA’s effort to improve the quality of transaction type, however, as we noted earlier, it
may not be necessary to conduct on-site verifications since ITA’s CFO staff has access to export
success reports and the transaction type data via eMenu at headquarters.




                                               23 

U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

III. User Fee Collections Warrant Management’s Attention

Office of Management and Budget (OMB) Circular A-25 establishes federal policy regarding
fees assessed for U.S. government services and for sale or use of federal goods or resources—
including those of the Commercial Service—that convey special benefits to recipients beyond
those accruing to the general public. The stated objective of this policy is that fees be set to
allow full cost recovery or charge market price for benefits provided to specific recipients
beyond those accruing to the general public. In reviewing this issue during this inspection, we
found that CS’ Operations Manual conflicts with the OMB requirement by not requiring full cost
recovery. Instead, the Manual requires only recovery of direct costs associated with providing
fee-for-service products. We found that trade specialists do not always charge clients for the
services they provide contrary to CS’ own requirements as established in the Operations Manual.
Further, many clients we spoke with indicated that CS’ current fees are low, and that they
possibly would be willing to pay more for them, thereby increasing Commercial Service’s cost
recovery. We are aware that in January 2002, and again in early 2004, ITA requested a waiver
from OMB’s Circular A-25 full cost recovery requirement for its trade promotion activities, but
OMB has not yet responded to CS’ waiver requests. Until ITA receives a waiver from OMB,
Commercial Service should take additional steps to increase cost recoveries.

A. Trade specialists sometimes forgo charging clients for international buyer services

According to section 6.3.1 of CS’ Operations Manual, entitled Trust Funds, CS must recover all
direct costs associated with providing fee-for-service products to its customers. Domestic offices
are required to recover the direct costs (telephones, video hookups, room rental, etc) associated
with their services. As noted in the manual, this cost recovery principle applies to Gold Key
USA services, as well as Reverse Trade Missions, where foreign delegations travel to the U.S.
In addition to direct cost recovery, the manual states that fees are to be set to encourage desired
requests by target clientele, deter frivolous requests, and avoid competition with other CS
services.

Gold Key USA is essentially the reverse of CS’ Gold Key international matching service. The
objective of Gold Key USA is to facilitate U.S. exports by providing a fee-based matchmaking
program for international customers of U.S. products and services. Gold Key USA is tailored to
international buyers traveling to the U.S. and includes customized appointment scheduling and
counseling services, thus providing international buyers with one-on-one meetings with pre-
screened export-ready U.S. companies. The level of services provided by the USEACs depends
on the international buyers’ needs, the resources available at the domestic office, the type of
product or service requested, and the timing of the visit. Gold Key USA fees vary depending on
the level of service provided and are set by the individual USEACs.

Gold Key USA is primarily promoted and publicized by posts through counseling and seminars,
as well as at export events and by chambers of commerce. The target clientele of the Gold Key
USA program are international buyers who are serious about importing, capable of investing in
travel, and committed to following up with Gold Key USA appointments. To that end, CS
requires all international buyers using the Gold Key USA service to complete a preliminary
assessment, to determine their import readiness.



                                                24
U.S. Department of Commerce                                                   Final Report IPE-16507
Office of Inspector General                                                              March 2004

The San Jose USEAC provided two Gold Key USA services in fiscal year 2002, where each
client was charged $500. In fiscal year 2001, the San Jose USEAC hosted an in-bound trade
mission, and collected $7,750. In total, for these events, the USEAC collected $8,750 in fees.
The USEAC provided another reverse trade mission for the CS post in Taiwan in April 2002 and
collected a $550 fee ($50 per company). In this case, the post brought a delegation of Taiwanese
businesspeople to Silicon Valley for several days. The fee for this service was lower because the
USEAC did not arrange individual appointments for the delegation, but rather arranged group
presentations and company tours.

Although the San Jose USEAC collected fees for these events, we are concerned that San Jose
and the other USEACs we visited do not consistently charge international buyers for their
services, as required by OMB Circular A-25 and the CS Operations Manual. Further, it appears
that the fees charged by the USEACs do not even cover the direct costs associated with their
services much less the full costs required to be recovered by the Circular. One San Jose trade
specialist told us that although the USEAC consistently tries to collect fees from the international
buyers, some overseas posts are reluctant to charge their clients even though fee collection is
required by both the CS Operations Manual and OMB. We have been told that the posts’
resistance is partly due to the well-known fact that most USEACs do not collect fees for their
international buyer services.

We were also informed that trade specialists are often willing to overlook the requirements to
charge for their services because the overseas posts, which usually recommend the Gold Key
USA service to clients, may balk at payment. We were told by a trade specialist that if, for
instance, the San Jose USEAC charges clients for its Gold Key USA services but another
USEAC does not, the posts may refer their client to the “free” USEAC, and thus avoid the San
Jose USEAC altogether. Trade specialists also reported that Gold Key USA services could result
in export successes—whether or not the international buyer pays a fee—and because the trade
specialists do not want to miss an opportunity to achieve an export success, they may forgo
charging the client.

We discussed this issue with the Western Region director, and he confirmed that the San Jose
USEAC is one of the few USEACs in the country that has charged international buyers for the
Gold Key USA service. Other USEACs we visited (particularly those in large metropolitan
cities) told us they are overwhelmed by frequent foreign delegations that require trade
specialists’ services. One trade specialist estimated that it takes approximately 30 hours to
complete a Gold Key USA service package. Despite this large time commitment, some USEACs
and posts do not charge a fee—in direct conflict with CS and OMB requirements. This problem
is exacerbated by the fact that the fees being charged may not cover even the USEACs’ direct
costs, much less their full costs. An unfortunate result of this practice is that some international
buyers could receive services at no cost, while U.S. companies must pay for similar services at
overseas posts.

Another issue came to our attention regarding Gold Key USA: when international buyers do not
purchase formal Gold Key USA services, the buyers may not be required to complete and submit
a preliminary assessment form. The preliminary assessment is important because it requires the
international buyers to provide information such as how long the company has been in business,



                                                25 

U.S. Department of Commerce                                                    Final Report IPE-16507
Office of Inspector General                                                               March 2004

annual sales, the anticipated end-users of the products, and the intended distribution channels.
This information helps trade specialists at the USEACs assess the buyers’ import readiness and
properly match the international buyer with appropriate U.S. exporters. Circumventing this
important step—which is required when a Gold Key USA is purchased, and is crucial to the
success of Gold Key USA—makes it difficult for trade specialists to evaluate an international
buyer’s import-readiness, and reduces the likelihood of a successful export. Requiring
international buyers to complete the preliminary assessment form is a crucial step in determining
a company’s import readiness and intentions, and in helping the USEACs better assist U.S.
companies.

For instance, in one case where an international buyer did not purchase a formal Gold Key USA
and thus did not complete a preliminary assessment, a trade specialist stated that she had set up
many appointments for the buyer, only to learn that the “buyer” was actually interested in selling
products to U.S. companies, not buying U.S. products for export. This trade specialist expressed
concern that in instances like this, CS could lose credibility with its U.S. clients as well as waste
trade specialists’ time and other CS resources. We believe that at a minimum, posts should
ensure that any foreign buyers referred to USEACs for Gold Key USA services are fully and
properly screened.

Recommendation. CS should review and modify, as appropriate, its policies and Operations
Manual to comply with OMB Circular A-25, unless it receives a waiver from its requirements.
We also recommend that CS ensure that all USEACs and overseas posts consistently charge fees
for Gold Key USA and other foreign buyer services.



In response to our draft report, ITA’s Chief Financial Officer and Director of Administration
stated that ITA is addressing the user fee issue on an ongoing basis. Specifically, she stated that
(1) as a follow-up to the user fee study prepared by a contractor, ITA has formed a Product
Management Board that consists of two working groups—one to address pricing, and the other
to address policy; (2) a review of Commercial Service’s Gold Key service is underway; and
(3) ITA has a draft strategy to build on the contractor’s work to ensure full cost recovery.
Further, the CFO stated that Commercial Service will reissue the current Gold Key USA policy
to the field, and the policy group of the Product Management Board will review the policy to
determine whether it needs to be adjusted. The CFO added that ITA will routinely report on the
results of the Product Management Board’s work to the Department and OMB. We are pleased
that ITA is taking these steps toward compliance with OMB and ITA policy and that
Commercial Service will reissue its Gold Key USA policy. However, we believe that specific
actions need to be taken to ensure that the latter policy is consistently enforced by both the
overseas posts and all USEACs that provide Gold Key USA services.




                                                 26 

U.S. Department of Commerce                                                                     Final Report IPE-16507
Office of Inspector General                                                                                March 2004

B.        Many clients consider Commercial Service fees to be low

We contacted 98 clients, 18 trade partners, and 18 trade specialists during our inspection. We
asked each about their perspective on CS’ fees. Although a few clients in the Pacific Northwest
stated that they could not afford the fees, many stated that they found CS fees to be a “bargain”
or a “great value,” considering the level of service provided. One client, who had purchased
Flexible Market Research on Australia, at a cost of $2,000, told us that he believed that similar
services from the private sector would have cost much more. He also purchased a Gold Key
from CS’ post in Canada and “could not believe” that it cost only $500. This client (who
represented a small company of less than 100 employees) was very pleased with CS’ services
and found them “an incredible bargain”. A trade partner that represents over 2,000 firms in the
San Francisco area, and promotes CS services to the members, told us the organization and its
members believe the services CS provides are “invaluable,” yet they find CS fees “laughable.”
Some trade specialists expressed concern for companies that could not afford CS’ fees, even at
their present level, but suggested this perhaps meant the company was not ready to export. Most
of the specialists, however, stated that they believe their clients would be willing to pay higher
fees.

Circular A-25 also states that fees should be assessed biennially to determine their
reasonableness and modified to reflect changing costs and market values. To address this
requirement, ITA hired a private contractor to conduct a study of its user fees. The results
(issued January 24, 2003)8
showed that ITA’s fee-based                                Commercial Service Products and Services
products and services have a
                                     • Flexible Market Research. Customized market research designed to meet the 

negative cost structure (i.e.,         specific needs of clients by answering questions about a particular market and its 

cost is greater than price), thus      receptivity to targeted products and services. 

increasing the volume of fee-
                                     • Gold Key Matching Service. Sets up one-on-one appointments between U.S.

based products and services            clients and potential business partners identified and selected by in a targeted export 

sold without significantly             market. 

increasing prices charged
                                     • International Company Profile. Background information on a prospective agent, 

and/or finding ways to reduce          distributor, or partner with whom a U.S. firm is considering doing business. 

production costs would result 

in a further reduction in net        • International Partner Search. A service that matches requestors with potential

                                       partners to a market product or service in a given area. 

revenues. The contractor
concluded that although ITA          • Platinum Key Service. Provides a firm with ongoing, customized support for a 

has the means to increase              specified timeframe, scope, and fee. Services include counseling, as well as 

                                       assistance in identifying markets, launching products, developing project 

generation of net revenue in the       opportunities, finding partners, reducing market access barriers, and understanding
short-term by focusing on              regulatory or technical standards.
selective price increases and
cost reductions, these measures      • International Buyer Program. Promotes key U.S. trade shows to international
                                       business executives, and brings international buyers to these events to meet with
would not be sufficient to             U.S. firms.
generate significant increases
in net revenues over the long
term—certainly not enough for full cost recovery. However, the contractor hired by ITA did not
obtain any feedback directly from clients as to whether they would be willing to pay more for
8
    Department of Commerce International Trade Administration User Fee Study, KPMG LLP, January 24, 2003.


                                                            27 

U.S. Department of Commerce                                                    Final Report IPE-16507
Office of Inspector General                                                               March 2004

products and services. Because of this, some managers have questions about the validity of the
findings. Based on the limited feedback we obtained from clients, trade partners, and CS staff
during this review, it appears that CS could increase its fees without adversely affecting at least
some of its clients.

CS management has increased fees for some of its services. For example, the fees for its
International Buyer Program increased from $5,000 to $6,000 for events that occurred in FY
2002, to $7,000 for FY 2004 events, and to $8,000 for FY 2005 events. Likewise for Trade Fair
Certifications, CS increased the fees from $1,500 to $1,750 after FY 2002. CS stated that it is
considering further increases in these fees and others in FY 2005.

CS’ Office of Planning is currently leading a review, that includes a client focus group, and an
analysis of historical price and volume data, to determine whether it could raise fees for several
of its products, including the Gold Key service, one of its most popular products. This is
significant because the prices of other products and services (e.g., International Partner Search)
are determined as a percentage of the Gold Key price. Currently, the price of a Gold Key varies
by post, and is set at a level that at best appears to cover only direct costs. The focus group plans
to meet with CS clients in the Southern California and St. Louis networks to obtain their
feedback on CS fees, and will issue a report to ITA management in 2004.

We shared the results of our review with CS management and the focus group, and they
indicated that our findings are consistent with feedback they have obtained from at least some of
their clients—primarily that it might be possible the current fees could be raised without much
impact on clients. CS management also stated that instead of increasing fees on a pilot basis in a
few markets, it would most likely increase fees worldwide.




                                                 28 

U.S. Department of Commerce                                                                  Final Report IPE-16507
Office of Inspector General                                                                             March 2004

IV. Financial and Administrative Operations Are Generally Sound, with a Few Exceptions

Our review of the Pacific Northwest USEAC Network’s financial and administrative operations
found them to be generally sound: assets are accounted for and properly used; no cash
collections are made; credit card and check collections are entered into eMenu; and inventory
and time and attendance records (with one exception) are properly managed. Our findings also
reflect those of two internal control reviews of the Pacific Northwest network conducted in
October 2002 and August 2003 by
NFST staff not affiliated with the                          National Field Support Team
network. NFST identified no              ODO established the NFST in 2001 to relieve trade specialists of their
material problems with the               administrative and financial workload so they could devote more time to
administrative operations for the        clients and core mission activities. One NFST field support specialist (FSS)
period October 1, 2001, through          is assigned to each USEAC network as the primary contact for
August 31, 2002; and for the             administrative processing for all network employees with the exception of
period of October 1, 2002 through        the Pacific Northwest network which has two field support specialists. An
May 31, 2003, respectively. Much         administrative support agreement signed by the network director, the FSS
of the credit for the network’s          and the NFST director, spells out FSS responsibilities for budget formulation
sound financial and administrative       allocation, * reporting, and reconciliation; human resources; hospitality
operations goes to the NFST              requests; gifts, and bequests; management of procurement, travel, time and
personnel assigned to both the           attendance, awards, trust funds, and inventory; and liaison for leases and
network and CS headquarters.             memoranda of understanding. The purpose of the agreements is to enable
                                               ODO to, among other things
Because of the merger of the San             place more resources into export promotion;
Jose and Seattle networks in                 establish administrative consistency across the country;
October 2003, the Pacific                    improve budget formulation, allocation, and management;
Northwest network has two field              enhance administrative customer service and accountability; and
support specialists who appear to            improve the morale of administrative staff.
be knowledgeable, organized, and
responsive. One FSS, who handles *The FSS works with the network director to formulate the budget and set allocations.
the former Seattle network, is
located at the Portland USEAC; the other, who handles the San Jose network, is located at the
Los Angeles USEAC. We visited the Portland office on November 18, 2003, and met with the
FSS there. We interviewed the other FSS via teleconference during our Portland visit.

As part of our review, we asked network staff about their satisfaction with the two FSSs and
NFST’s services, and whether the establishment of NFST has indeed allowed them to focus more
on client needs. Overwhelmingly, they stated that the FSSs were helpful, knowledgeable, and
responsive and the trade specialists spend much less time on administrative matters since
NFST’s creation, which has allowed them more time for core responsibilities. One USEAC
director stated that the NFST director was a “miracle worker.” In fact, according to NFST’s
customer satisfaction ratings, the network staff gave one FSS a 98 percent satisfaction rating and
the other a 99 percent rating.




                                                         29 

U.S. Department of Commerce                                                       Final Report IPE-16507
Office of Inspector General                                                                  March 2004

A.      Leasing costs have been cut

To its credit, ODO management is aggressively seeking to reduce its space leasing costs for
USEACs nationwide. Beginning in FY 2004, ITA management is projecting to achieve lease
savings of $154,000 per year in the Pacific Northwest region. In San Francisco, savings of
$122,000 will be realized due to downsizing and realignment of office space. In addition,
relocation of the Hawaii USEAC during FY 2003 will result in lease savings of $32,000.

B.      Purchase cardholders are exceeding spending thresholds

The Commerce Acquisition Manual (CAM)9 states, “the purchase card may be used to purchase
monthly cellular phone airtime, monthly pager service, monthly internet services, etc., as long as
the total for each type of service does not exceed $2,500 in the course of a Fiscal Year,”
(emphasis added). However, three cardholders in the Pacific Northwest network exceeded the
annual $2,500 limit. Based on our review of purchase card records, three purchase cardholders
in this network charged at least $10,000 for cellular telephone charges. This issue was discussed
with staff during our on-site visits and by teleconference, and a copy of the CAM guidelines was
provided to both field support specialists. Both cardholders stated they were unaware of the
CAM requirement.

We also discussed this issue of cell telephone expenses exceeding the $2,500 limit with an
official in the Office of Commerce Acquisition Performance Policy and Support whose position
is that the purchase card limit should remain at $2,500 in line with the small purchase
requirement. In the event that actual or projected cell phone expenditures exceed $2,500,
purchase cardholders should discuss other methods for procuring cell telephone service with
their procurement officials. An example of other payment methods would be procuring cell
telephone service through a blanket purchase order.

Recommendation. CS management should ensure that purchase cardholders and authorizing
officials are aware of and adhere to the $2,500 annual purchase card limit for cell telephone
service. If cell telephone costs exceed $2,500, Commercial Service should instruct cardholders
to work with procurement officials to identify other methods for procuring cell telephone service.



In replying to our draft report, ITA’s Chief Financial Officer and Director of Administration
agreed with our findings and stated that ITA has initiated a project to address cell phone
acquisition and management to conform to the Department’s new telecommunications policy.
According to the CFO, this policy requires that all telecom data, including cell phones, must be
fully auditable, reportable, and capable of being analyzed. The CFO also stated that ITA is
working to develop a new system for cell phone purchases that complies with the telecom policy,
as well as procurement requirements. The actions proposed meet the intent of our
recommendations.

9
 "Commerce Purchase Card Procedures,” Chap. 1313.301 of Commerce Acquisition Manual (U.S. Department of
Commerce, April 5, 2000, modified February 1, 2004), 10.



                                                   30
U.S. Department of Commerce                                                           Final Report IPE-16507
Office of Inspector General                                                                      March 2004

C.      Advance payments were made for cellular telephone expenses

Title 31 of the U.S. Code sets forth a general prohibition to agencies against making advance
payments for goods or services. Specifically, 31 U.S.C. Section 3324, provides that “…a
payment under a contract or to provide a service or deliver an article for the United States
Government may not be more than the value of the service already provided or the article already
delivered.” According to the General Accounting Office’s (GAO’s) Principles of Federal
Appropriations Law, the primary purpose of this section is “to protect the government against the
risk of nonperformance.”10

In reviewing purchase card statements, we found that the Pacific Northwest network prepaid
$10,000 of projected FY 2004 cellular telephone charges in FY 2003. According to NFST staff,
the estimated 2004 payments, made in September 2003, were projected from FY 2003 monthly
cellular telephone costs. We discussed this finding with the NFST director, who agreed that
advance payments for monthly recurring expenses should not be made.

Recommendation. Commercial Service should ensure that authorizing officials and NFST staff
understand and adhere to the requirement that advance payments should not be made without
specific statutory authority.



In its response to our draft report, ITA states that prepayment for services violates procurement
policies. ITA also stated that our findings will be discussed with NFST staff and written
guidelines will be issued by the end of April. In addition, ITA ‘s purchase card coordinator will
require all NFST staff to repeat on-line purchase card training by the end of June. We support
the actions ITA has completed and proposes to take and we consider this recommendation
closed.

D.      Time and attendance matters were not handled properly for one employee

In preparation for our impending inspection, the FSS reviewed and corrected leave records for
one employee. In doing so, she found that the employee had been absent from duty on many
occasions without submitting leave slips or obtaining approval from his supervisor. Although
the supervisor had documented the absences and consistently reminded the employee to submit
the required documentation, the employee had not consistently done so. As a result, in many
instances, the employee’s supervisor did not notify the FSS to charge the employee leave.
Therefore, the employee’s leave balance was incorrect and the employee was paid for time not
worked or covered with leave.

We discussed this issue with the USEAC director, the network director, and the FSS, and advised
them that employees should be charged leave even if they do not complete a leave request. The
network director stated that he was not aware of the extent of the problem until we brought this
to his attention. Going forward, the directors and the FSS agreed to charge employees leave,

10
 "Advance Payments," Chap. 5 in Principles of Federal Appropriations Law, Vol. 1 (United States General
Accounting Office, July 1991), 5-42.


                                                     31
U.S. Department of Commerce                                                  Final Report IPE-16507
Office of Inspector General                                                             March 2004

even if employees do not submit leave requests. The FSS also performed a leave audit on the
employee mentioned above, covering the past 5 fiscal years (1999-2003). As a result of this
audit, the employee’s leave balance was adjusted. Based on the FSS’ calculations that the
employee had not been charged for nearly 200 hours of annual leave, we estimate that this
adjustment will result in approximately $7,000 of funds to be put to better use.

Recommendation. CS management should ensure that supervisors are aware of the importance
of the timely submission of leave slips and notify the FSS promptly when leave deductions need
to be made, even if proper documentation has not been provided. Further, supervisors should not
approve timesheets without verifying the correctness of leave used and reported by employees.



ITA’s Chief Financial Officer, in responding to our report, stated that the employee cited in our
draft report is subject to a Leave Restriction memo, and currently reports to a new supervisor.
ITA’s response also indicates that the employee’s time and attendance records have been
adjusted to reflect the employee’s actual leave usage. Further, the response indicates that ITA
has begun implementation of the Department’s web-based time-and-attendance system, which
requires supervisors to certify all time-and-attendance records prior to processing by the National
Finance Center. The actions taken and proposed meet the intent of our recommendations.




                                                32 

U.S. Department of Commerce                                                  Final Report IPE-16507

Office of Inspector General                                                             March 2004


                          SUMMARY OF RECOMMENDATIONS 


To strengthen the management and operations of the Pacific Northwest USEAC Network as well
as all domestic export assistance centers, we recommend that the Acting Assistant Secretary and
Director General of the Commercial Service do the following:

Export Successes

• 	 Monitor the implementation and adequacy of its initiatives for improving export success
    reporting and review, and ensure that they have the desired impact of enhancing both the
    reporting process and management oversight.

• 	 Ensure that reported successes that did not occur are deleted from the database.

Client Documentation

• 	 Ensure that the Commercial Service Operations Manual is updated to reflect its new export
    success guidelines, including development of a new category for prevention of export loss.

• 	 Ensure that trade specialists are adequately reaching out to and counseling U.S. firms
    interested in developing export business, including new-to-export firms. In addition, we
    recommend that network directors and headquarters management ensure that export success
    data correctly reflects the export transaction type.

Fee Collection

• 	 CS should review and modify, as appropriate, its policies and Operations Manual to comply
    with OMB Circular A-25, unless it receives a waiver from its requirements. We also
    recommend that CS ensure that all USEACs and overseas posts consistently charge fees for
    Gold Key USA and other foreign buyer services.

Finance and Administrative

• 	 Ensure that purchase cardholders and authorizing officials are aware of and adhere to the
    $2,500 annual purchase card limit for cell telephone service. If cell telephone costs exceed
    $2,500, Commercial Service should instruct cardholders to work with procurement officials
    to identify other methods for procuring cell telephone service.

• 	 Ensure that authorizing officials and NFST staff understand and adhere to the requirement
    that advance payments should not be made without specific statutory authority.

• 	 Ensure that supervisors are aware of the importance of the timely submission of leave slips
    and notify the FSS promptly when leave deductions need to be made even if proper
    documentation has not been provided. Further, supervisors should not approve timesheets
    without verifying the correctness of leave used and reported by employees.



                                                33
U.S. Department of Commerce                                               Final Report IPE-16507

Office of Inspector General                                                          March 2004


                                        APPENDIX A

                                      List of Acronyms


BIS                   Bureau of Industry and Security
CAM                   Commerce Acquisition Manual
CMS                   Client Management System
CS                    Commercial Service
CITD                  Center for International Trade Development
DOJ                   Department of Justice
EDA                   Economic Development Administration
Ex-Im                 Export-Import Bank of the United States
FSS                   Field Support Specialist
FY                    Fiscal Year
GAO                   General Accounting Office
GDI                   Global Diversity Initiative
ICR                   Internal Control Review
ITA                   International Trade Administration
MAC                   Market Access and Compliance
MBDA                  Minority Business Development Agency
MOU                   Memorandum of Understanding
NFST                  National Field Support Team
ODO                   Office of Domestic Operations
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
OSY                   Office of Security
PNITA                 Pacific Northwest International Trade Association
SBA                   Small Business Administration
TD                    Trade Development
USEAC                 U.S. Export Assistance Center




                                              34 

U.S. Department of Commerce                                           Final Report IPE-16507

Office of Inspector General                                                      March 2004


                                         APPENDIX B 


                              Agency Response to the Draft Report 





                                              35 

U.S. Department of Commerce          Final Report IPE-16507

Office of Inspector General                     March 2004





                              36 

U.S. Department of Commerce          Final Report IPE-16507

Office of Inspector General                     March 2004





                              37 

U.S. Department of Commerce          Final Report IPE-16507

Office of Inspector General                     March 2004





                              38 

U.S. Department of Commerce          Final Report IPE-16507

Office of Inspector General                     March 2004





                              39 

U.S. Department of Commerce          Final Report IPE-16507

Office of Inspector General                     March 2004





                              40 

We conducted this review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency, and under authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended.

Program evaluations are special OIG reviews that provide agency managers with
information about operational issues. A primary goal of these evaluations is to encourage
effective and efficient operations, and thus eliminate waste in federal programs. By
asking questions, identifying problems, and suggesting solutions, OIG hopes to help
managers move quickly to address issues and deficiencies uncovered during the review.
Program evaluations may also highlight effective operations, particularly if they are
useful for agency managers or adaptable to programs elsewhere.

Major contributors to this report were Christine Shafik, Stephen Moore, and Deborah
Holmes, Office of Inspections and Program Evaluations.
U.S. DEPARTMENT OF COMMERCE

    Office of Inspector General 

        Room 7898C, HCHB 

   1401 Constitution Avenue, NW 

      Washington, DC 20230


         Internet Web site:

         www.oig.doc.gov
